Office of Material Loss Reviews
Report No. MLR-11-008


Material Loss Review of Eurobank,
San Juan, Puerto Rico




                                  December 2010
                                     Executive Summary

                                     Material Loss Review of Eurobank,
                                     San Juan, Puerto Rico
                                                                                     Report No. MLR-11-008
                                                                                            December 2010

Why We Did The Audit
On April 30, 2010, the Office of the Commissioner of Financial Institutions of the Commonwealth of
Puerto Rico (OCFI) closed Eurobank, San Juan, Puerto Rico and named the FDIC as receiver. On June 2,
2010, the FDIC notified the Office of Inspector General (OIG) that Eurobank’s total assets at closing
were $2.1 billion and the estimated loss to the Deposit Insurance Fund (DIF) was $739.8 million. As of
October 31, 2010, the estimated loss to the DIF had decreased to $737.1 million. As required by
section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act, the OIG conducted a material loss review of the failure of
Eurobank.

The audit objectives were to (1) determine the causes of Eurobank’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of Eurobank, including the FDIC’s implementation of
the Prompt Corrective Action (PCA) provisions of section 38.


Background
Eurobank, headquartered in San Juan, Puerto Rico, was established in 1980 as an uninsured trust
company named Espanola De Finanzas Trust Company, became an insured state nonmember bank in
1987, then assumed its current name in 1993. The bank was a wholly-owned subsidiary of
EuroBancshares, Inc., a one-bank holding company. Although the bank marketed a range of commercial
banking products and services, the bank’s niche was to provide one-to-one services to small and mid-
sized commercial businesses in Puerto Rico. As such, Eurobank, 1 of 10 banks operating in Puerto Rico
before the bank was closed, encountered intense competition from the other institutions in Puerto Rico.

Puerto Rico’s economy has been in the midst of a severe recession for a number of years. Specifically,
the Puerto Rico Planning Board reported that the gross national product for the fiscal year ending June
2010 marked the island’s fourth consecutive year of economic contraction. In the 2 years leading up to
the Puerto Rico recession, Eurobank had a diversified loan portfolio, consisting of commercial real estate
(CRE) loans, acquisition, development, and construction (ADC) loans, commercial and industrial loans,
and residential real estate loans. The bank also entered the leasing business under the trade name,
EuroLease. Additionally, Eurobank became reliant on wholesale funding sources, particularly brokered
deposits. Over the past decade, insured depository institutions in Puerto Rico have become increasingly
dependent upon non-core funding, primarily brokered deposits. U.S. tax policy and legislation enacted by
the Puerto Rico government, and other sources of competition, have been identified as contributing
factors to the funding structure of Puerto Rico banks.


Audit Results

Causes of Failure and Material Loss

Eurobank failed because the Board and management did not effectively oversee or appropriately react to
the impact that Puerto Rico’s prolonged and severe recession had on the bank’s CRE and ADC loan
portfolios. Management mishandled the administration of these portfolios as the economy deteriorated,
real estate sales slowed, and loans became delinquent. Both portfolios represented concentrations,


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Eurobank,
                                      San Juan, Puerto Rico
                                                                                     Report No. MLR-11-008
                                                                                            December 2010

equaling 378 percent and 107 percent of total capital, respectively, at year-end 2007, the time at which the
recession was officially recognized. Weaknesses in the bank’s internal loan grading system and appraisal
review process leading up to the economic downturn exacerbated losses, as did the bank’s weak credit
administration and underwriting of the deteriorating portfolio. Further, the bank did not adjust its risk
management practices when economic conditions and the real estate market began to decline, or in
response to examination recommendations aimed at strengthening internal controls. The bank’s growth
was funded in large part by brokered deposits, and the erosion of capital associated with loan losses
stressed the bank’s liquidity as the bank’s ability to renew its brokered deposits became restricted and
eventually prohibited. Ultimately, Eurobank was not considered viable because of the bank’s
deteriorating asset quality, poor earnings, and declining capital.

The FDIC’s Supervision of Eurobank

Our review focused on the period from 2005 to 2010 and, during that period, the FDIC and OCFI
conducted timely examinations of Eurobank. Notably, in 2006, the FDIC’s New York Regional Office
(NYRO) recognized the need to closely monitor economic and banking trends in Puerto Rico and those
monitoring efforts led to the development of a comprehensive supervisory strategy for Puerto Rico in
2008 and 2009. As part of that broader strategy, the FDIC’s supervisory attention to Eurobank was
extensive and comprised of the following elements: (1) annual onsite safety and soundness examinations
performed jointly with OCFI, (2) offsite monitoring activities, and (3) targeted asset quality reviews and a
horizontal review of loan classifications. The FDIC’s supervisory strategy was also instrumental in
implementing a well-coordinated resolution of three Puerto Rico banks (Eurobank, Westernbank of
Puerto Rico, and R-G Premier Bank of Puerto Rico) when they closed in April 2010.

Examiners downgraded Eurobank’s management component in 2006, noting numerous oversight
deficiencies, including failure to implement promised corrective action for BSA-related deficiencies,
numerous apparent violations of laws and regulations, weaknesses in internal audit and management
succession planning, and weaknesses in risk management practices, including funds management,
asset/liability management, internal loan review, and internal controls. Downgrading the Management
component for these weak practices was consistent with what is contemplated in the FDIC’s forward-
looking supervision program.

Weaknesses in risk management practices were repeated and more pronounced at the 2007 and 2008
examinations, and, consequently, the FDIC and OCFI progressively downgraded component and
composite ratings and used enforcement actions to secure Eurobank’s correction of deficiencies.
Separately, the FDIC also imposed an enforcement action to address the bank’s non-compliance with the
Bank Secrecy Act (BSA). Although the Board had implemented corrective action to reduce the exposure
in its lease portfolio in 2005, the Board failed to adequately address supervisory recommendations and
enforcement measures in later years aimed at strengthening risk management practices, including funds
management, CRE and ADC lending and administration practices, internal loan review, and internal
controls.

A general lesson learned with respect to weaknesses in risk management practices, particularly as they
relate to the lending function in general and CRE and ADC concentrations in particular, is that early
supervisory intervention is prudent, even when an institution is considered Well Capitalized and has few
classified assets. In hindsight, imposing a stronger supervisory action in 2007 may have been prudent,
taking into consideration:



                                  To view the full report, go to www.fdicig.gov
    Executive Summary
                                      Material Loss Review of Eurobank,
                                      San Juan, Puerto Rico
                                                                                       Report No. MLR-11-008
                                                                                              December 2010



   the vulnerability of CRE and ADC concentrations to economic cycles;
   unique market factors that made ADC lending in Puerto Rico even riskier than in other U.S. markets;
   the importance of strong underwriting and credit administration practices in mitigating risk;
   Eurobank’s growth was being fueled, in large part, by brokered deposits and the bank was becoming
    increasingly reliant on volatile funding;
   the Board and management’s inadequate response to BSA-related deficiencies; and
   the importance of a strong internal loan review and grading system to ensure timely identification of
    developing problems and an accurate Allowance for Loan and Lease Losses.

Recognizing that banks in Puerto Rico faced unique challenges in attracting core deposits, greater
supervisory attention and earlier criticism of the bank’s overall liquidity risk profile might also have been
prudent. The FDIC has taken a number of actions to address banks that have risk profiles similar to
Eurobank, including instituting a training initiative on forward-looking supervision and issuing additional
supervisory guidance on CRE and ADC concentrations and funds management.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner.

Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On December 2, 2010, the Director,
Division of Supervision and Consumer Protection (DSC), provided a written response to the draft report.
DSC reiterated the OIG’s conclusions regarding the causes of Eurobank’s failure. With regard to our
assessment of the FDIC’s supervision of Eurobank, DSC described its supervisory approach and actions
taken in response to weaknesses in the bank’s risk management practices, including rating downgrades
and use of enforcement actions between 2006 and 2010, as discussed in our report. DSC’s response noted
that Eurobank’s Board and management failed to adequately address supervisory recommendations and
enforcement measures. Further, DSC’s response stated that supervisory guidance has been issued to
enhance supervision of institutions, such as Eurobank, that rely heavily on volatile funding sources. In
addition, DSC stated it has completed an examiner training program, as discussed in our report, which
emphasizes a forward-looking approach when assessing a bank’s risk profile. The early use of informal
enforcement actions to pursue corrective of weak risk management practices is consistent with forward-
looking supervision.




                                  To view the full report, go to www.fdicig.gov
                                Contents
                                                                  Page
Background                                                          2

Causes of Failure and Material Loss                                 5
  Board and Management’s Lending Strategy                           5
  Loan Underwriting and Credit Administration Practices             9
  Reliance on Wholesale Funding Sources                            13

The FDIC’s Supervision of Eurobank                                 15
   Supervisory History                                             16
   Supervisory Response to Key Risks                               19
   Implementation of PCA                                           27

Corporation Comments                                               29

Appendices
  1. Objectives, Scope, and Methodology                            30
  2. Glossary of Terms                                             33
  3. Acronyms                                                      39
  4. Examiner Comments in Reports of Examination                   41
  5. Corporation Comments                                          42

Tables
   1. Financial Information for Eurobank, 2005 to 2010              2
   2. Eurobank’s Net Non-Core Funding Dependency Ratio Compared
      to Peer, 2005 to 2010                                        14
   3. Examination History of Eurobank, 2005 to 2010                17
   4. Eurobank’s Capital Levels, 2005 to 2009                      28

Figures
   1. Eurobank’s Loan Composition, 2005 to 2010                     6
   2. Eurobank’s ADC and CRE Loans as a Percentage of Total         8
      Capital Compared to Peer, 2005 to 2010
   3. Eurobank’s Net Charge-off on Loans and Leases,
      2005 to 2009                                                  9
   4. Brokered Deposits as a Percentage of Total Deposits,
      2004 to 2010                                                 14
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           December 2, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Eurobank, San Juan, Puerto Rico
                                                (Report No. MLR-11-008)

As required by section 38(k) of the Federal Deposit Insurance Act (FDI) Act, and as
amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial
Reform Act), the Office of Inspector General (OIG) conducted a material loss review
(MLR) of the failure of Eurobank, San Juan, Puerto Rico. The Office of the
Commissioner of Financial Institutions of the Commonwealth of Puerto Rico (OCFI)
closed the institution on April 30, 2010, and named the FDIC as receiver. On June 2,
2010, the FDIC notified the OIG that Eurobank’s total assets at closing were $2.1 billion
and the estimated loss to the Deposit Insurance Fund (DIF) was $739.8 million. As of
October 31, 2010, the estimated loss to the DIF had decreased to $737.1 million. The
estimated loss exceeds the $200 million MLR threshold for losses occurring between
January 1, 2010 and December 31, 2011, as established by the Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of
Eurobank’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision of Eurobank, including the FDIC’s implementation of the PCA provisions of
section 38 of the FDI Act. This report presents our analysis of Eurobank’s failure and the
FDIC’s efforts to ensure that the Board of Directors (Board) and management operated
the institution in a safe and sound manner. The report does not contain formal
recommendations. Instead, as major causes, trends, and common characteristics of
institution failures are identified in our material loss reviews, we will communicate those
to FDIC management for its consideration. As resources allow, we may also conduct
more comprehensive reviews of specific aspects of the FDIC’s supervision program and
make recommendations as warranted.1 Appendix 1 contains details on our objectives,
scope, and methodology. We also include several other appendices to this report.
Appendix 2 contains a glossary of key terms, including material loss, the FDIC’s
supervision program, and the Uniform Financial Institutions Rating System, otherwise
known as the CAMELS ratings. Appendix 3 contains a list of acronyms. Appendix 4
presents examiner comments on reports of examination from 2005 to 2009. Appendix 5
contains the Corporation’s comments on the report.

Background
History and Description of Eurobank

Eurobank, headquartered in San Juan, Puerto Rico,2 was established in 1980 as an
uninsured trust company named Espanola De Finanzas Trust Company, became an
insured state nonmember bank in 1987, then assumed its current name in 1993. The bank
was a wholly-owned subsidiary of EuroBancshares, Inc., a one-bank holding company.
Eurobank, like other banks in Puerto Rico, was also highly dependent on brokered
deposits as a result of changes in tax laws, as discussed in more detail below. Table 1
provides details on Eurobank’s financial condition as of March 31, 2010, and for the 5
preceding calendar years.

Table 1: Financial Information for Eurobank, 2005 to 2010
     Financial Measure
            ($000s)           Mar-10        Dec-09          Dec-08       Dec-07       Dec-06           Dec-05
    Total Assets              2,453,138     2,561,343       2,859,489    2,750,773    2,500,164        2,392,021
    Total Loans               1,516,985     1,546,063       1,769,578    1,857,219    1,749,959        1,576,260
    Total Investments           851,170       929,751         984,266      790,373      677,117          745,169
    Total Deposits            1,861,350     1,970,724       2,084,853    1,993,905    1,905,831        1,734,650
    Brokered Deposits         1,074,618     1,141,634       1,423,814    1,336,560    1,226,156          967,206
    Federal Funds               468,675       468,674         556,475      496,419      365,664          419,860
    Net Income (Loss)            (3,709)     (70,975)          (9,963)       4,757       10,249           18,068
Source: Uniform Bank Performance Reports (UBPR) for Eurobank.

Eurobank was a full-service commercial bank and operated 27 offices in 17 Puerto Rico
counties. Eighty-four percent of Eurobank’s total deposits were held in San Juan County,
but Eurobank’s growth strategy involved increasing its presence outside of the San Juan
metropolitan area by following Puerto Rico’s primary traffic arteries to new locations
poised for growth. The bank’s strategy resulted in branch locations that were near
approximately 80 percent of the island’s population.

Although the bank marketed a range of commercial banking products and services, the
bank’s niche was to provide one-to-one services to small and mid-sized commercial
businesses in Puerto Rico. As such, Eurobank, 1 of 10 banks operating in Puerto Rico


1
  A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.
2
  Puerto Rico is a territory of the United States (U.S.) and the fourth largest Caribbean island.


                                                        2
before the bank was closed,3 encountered intense competition from the other commercial
lending institutions in Puerto Rico that are similar to credit unions, known as
“cooperativas.” In the 2 years leading up to the Puerto Rico recession, the bank
maintained about 30 to 32 percent in CRE loans and 10 to 13 percent in ADC loans.
Commercial and Industrial (C&I) loans and residential real estate made up 16 percent and
11 percent of the bank’s portfolio, respectively. The bank had also entered into a leasing
business under the trade name, EuroLease, which comprised 21 percent of the bank’s
loan portfolio at year-end 2007.

Economic Conditions in Puerto Rico

Puerto Rico’s economy has been in the midst of a severe recession for a number of years.
In fact, while the U.S. recession is considered to have ended in June 2009,4 Puerto Rico’s
economy remains in a recession. Specifically, the Puerto Rico Planning Board reported
that the gross national product for the fiscal year ending June 2010 marked the island’s
fourth consecutive year of economic contraction. Reported factors contributing to the
economic contraction include the significant increase in oil prices, the budgetary
pressures on government finances, and continuous loss of manufacturing jobs. The
decline in employment on the island has been acute, and the percentage of jobs lost has
been nearly double the U.S. rate. Between December 2004 and September 2010, Puerto
Rico lost 133,000 jobs, a 12.6-percent decline. Unemployment in Puerto Rico has also
climbed. The unemployment rate reached 17.2 percent in April 2010, the island’s highest
rate in 17 years. The unemployment rate eased to 16.0 percent in September 2010 but
remains well above the U.S. rate of 9.6 percent.5 Further, the sharp downturn in the U.S.
economy has exacerbated the island’s plight as exports of goods to the U.S. have
plummeted and tourism has declined.6

Although Puerto Rico’s economy is closely linked to the U.S. economy, job losses in
Puerto Rico pre-date job losses in the U.S. by 3 years and have their root in changes in
the island’s tax structure. More specifically, the Tax Reform Act of 1976 established the
possessions tax credit under Section 936, which was enacted to encourage economic
development in U.S. possessions such as Puerto Rico, U.S. Virgin Islands, and Guam.
Section 936 exempted U.S. corporations from paying federal income tax on profits
generated by a qualified Puerto Rican subsidiary of a U.S. corporation. The stated
purpose of this tax credit was to “assist the U.S. possessions in obtaining employment-
producing investments by U.S. corporations.” Indeed, while the tax law was in effect,
Puerto Rico’s manufacturing base experienced strong employment growth.


3
  Three of the 10 banks in Puerto Rico, Eurobank, Westernbank Puerto Rico (Westernbank) and R-G
Premier Bank of Puerto Rico (R-G Premier), were closed on April 30, 2010.
4
  In September 2010, the Business Cycle Dating Committee of the National Bureau of Economic Research,
an independent group of economists, met and determined that a trough in business activity occurred in the
U.S. economy in June 2009. The trough marks the end of the declining phase and the start of a rising phase
of the business cycle.
5
  U.S. unemployment data as of October 2010 from the U.S. Department of Labor, Bureau of Labor
Statistics.
6
  For purposes of this discussion, we used U.S. to refer to the 50 states.


                                                    3
During the 1980s and early 1990s, several large U.S.-based pharmaceutical, medical
equipment, and metals manufacturing companies opened or expanded their operations in
Puerto Rico, which resulted in manufacturing surpassing agriculture as the primary
source of domestic income. However, legislation enacted in 1996 phased out the tax
incentives over a 10-year period and has been identified as a key factor in manufacturing-
related job losses on the island. Other reasons cited for the decline in Puerto Rico’s
manufacturing job base include an escalation in local labor and energy costs relative to
international competitors and the loss of patents on some pharmaceutical products that
are produced in Puerto Rico.

The sharp decline in economic activity has had a negative impact on the Puerto Rico
housing market. Similar to the U.S., home prices and new home construction on the
island have declined steadily since 2006 and contributed to a sharp decline in the number
of construction jobs. For example, between June 2004 and June 2009, the island lost one-
third of its construction-sector workforce. In contrast, construction-related job losses
started 2 years later across the U.S., down approximately 19 percent since 2006.
The reduction in new construction activity in Puerto Rico occurred about the same time
as it did in the U.S., but the percentage declines have been more severe.

Funding Structure of Puerto Rico Banks

Over the past decade, insured depository institutions in Puerto Rico have become
increasingly dependent upon non-core funding, primarily brokered deposits. Between
June 30, 1999 and June 30, 2009, brokered deposits increased from 13 percent to
40 percent of total deposits. U.S. tax policy and legislation enacted by the Puerto Rico
government, and other sources of competition from “cooperativas” (state-chartered
institutions similar to credit unions) have been identified as contributing factors to the
funding structure of Puerto Rico banks.

In addition to promoting job growth, while Section 936 was in effect, corporations were
subject to a passive income tax on repatriated profits.7 The tax was passed by the Puerto
Rican government and led companies to maintain deposits at local banks, rather than
repatriating all profits. This practice resulted in a strong, low-cost funding source for
local banks. The repeal of Section 936 had a dramatic impact on local banks’ ability to
retain their deposits. To illustrate, according to information provided by FDIC officials,
it was estimated that banks lost more than 90 percent, or approximately $7.4 billion in
deposits, from the manufacturing section in 2003 with the repeal of Section 936.

Additionally, over the last 10 years, Puerto Rico Investment Companies (PRICs) have
attracted deposits away from banks. More specifically, the Investment Companies Act of
Puerto Rico led to the organization and growth of PRICs, which are similar to mutual
funds. Most of these PRICs offer tax-advantageous products that compete directly with
bank deposits. “Cooperativas” are another source of competition for retail funding in
Puerto Rico. As of March 31, 2009, there were 123 “cooperativas” on the island. As a
result of the limited deposit market and the number of institutions on the island,

7
    Those profits that foreign corporations returned to their country from operations in Puerto Rico.


                                                        4
competition for local deposits is strong. In addition, local retail deposits generally tend to
be priced higher than brokered deposits, and banks find that brokered deposits are a lower
cost funding mechanism for growth.



Causes of Failure and Material Loss

Eurobank failed because the Board and management did not effectively oversee or
appropriately react to the impact that Puerto Rico’s prolonged and severe recession had
on the bank’s CRE and ADC loan portfolios. Management mishandled the
administration of these portfolios as the economy deteriorated, real estate sales slowed,
and loans became delinquent. Both portfolios represented concentrations, equaling 378
percent and 107 percent of total capital, respectively, at year-end 2007, the time at which
the recession was officially recognized. Weaknesses in the bank’s internal loan grading
system and appraisal review process prior to the economic downturn exacerbated losses,
as did the bank’s weak credit administration and underwriting of the deteriorating
portfolio. Further, the bank did not adjust its risk management practices when economic
conditions and the real estate market began to decline, or in response to examination
recommendations aimed at strengthening internal controls. The bank’s growth was
funded in large part by brokered deposits, and the erosion of capital associated with loan
losses stressed the bank’s liquidity as the bank’s ability to renew its brokered deposits
became restricted and eventually prohibited. Ultimately, Eurobank was not considered
viable because of the bank’s deteriorating asset quality, poor earnings, and declining
capital.

Board and Management’s Lending Strategy

Historically, the bank pursued a traditional business plan, including ADC and CRE
lending in Puerto Rico. With the ultimate goal of increasing its net income, the Board
and management grew assets from $1.3 billion as of December 31, 2003 to $2.9 billion
by December 31, 2008. They did so, in part, by increasing CRE and ADC lending,
including speculative construction loans for new properties and lines of credit to renovate
commercial real estate properties. As discussed later in this report, Eurobank’s growth
was funded largely by brokered deposits. Figure 1 illustrates the growth and composition
of Eurobank’s loan portfolio.




                                              5
Figure 1: Eurobank’s Loan Composition, 2005 to 2010

  Gross Loans and Leases (Millions)     $2,000
                                        $1,800
                                        $1,600                              $658
                                                                  $580                    $710
                                        $1,400          $492
                                                                                                    $616       $614
                                        $1,200                    $174
                                                        $116                $239
                                        $1,000                                            $240

                                          $800                    $448      $388                    $286       $291
                                                        $494                              $268
                                          $600                                                      $176       $165
                                                                  $284      $296          $257      $169
                                          $400          $258                                                   $150

                                          $200          $217      $265      $278          $296      $300       $298

                                             $0
                                                  Dec-05       Dec-06    Dec-07    Dec-08        Dec-09    March-10
                                                                           Period Ended


                                      All Other Loans             Commercial/Industrial          Lease Financing
                                      ADC Loans                   CRE Loans                      Receivable

Source: Reports of Condition and Income (Call Reports) for Eurobank.

As illustrated, in addition to its CRE and ADC portfolio, Eurobank had a considerable
lease portfolio. The bank primarily originated automobile leases, but the portfolio also
included leases for medical and construction equipment. Eurobank viewed leases to be a
riskier product type than commercial lending. However, Eurobank characterized its
automobile leases as finance leases, meaning the lessee was responsible for the residual
value of the automobile at the end of the lease term, which Eurobank considered to
mitigate risks associated those values being volatile. Eurobank’s automobile lease
portfolio generated a significant amount of loan and lease losses, but the majority of the
charge-offs occurred prior to 2008. CRE and ADC charge-offs that occurred in 2008 and
2009 were more significant to the bank’s failure.

Eurobank’s commercial loan portfolio included lines of credit to finance operations;
provide working capital for specific purposes; and purchase assets, equipment, or
inventory. For these types of loans, the primary source of repayment is generally a
borrower’s cash flow from operations. As such, these loans can be sensitive to economic
downturns. ADC lending is also inherently vulnerable to economic conditions and real
estate markets. Eurobank sought to market its construction loans to experienced real
estate developers who developed residential units throughout the island, with particular
emphasis on single-family homes and townhomes. Eurobank’s construction loans
generally had terms of 18 months, with options to extend for additional periods to
complete construction and the sale of the units.


                                                                             6
FDIC officials also explained that there were market factors in Puerto Rico that increased
the risk of ADC lending. In Puerto Rico, developers are not allowed to enter into long-
term pre-sales contracts with non-refundable deposits. Thus, the bank’s only assurance
of commitment to a project is deposits, which are fully refundable. For example, these
deposits (referred to as options in Puerto Rico) are generally less than $10,000, with some
as low as $2,500, and are refundable upon request for a $50 administrative fee. Because
purchase options are entirely in the favor of the buyer, examiners considered residential
development projects to be riskier. In addition, we understand that the process for
obtaining construction permits in Puerto Rico can take between 3 to 5 years, which is
longer than in other U.S. markets and, thereby increases the bank’s market risk.

In December 2006, federal banking regulatory agencies issued guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance) that reinforces existing regulations and guidelines for real estate lending
and safety and soundness.8 The Joint Guidance focuses on those CRE loans for which
cash flow from real estate is the primary source of repayment (i.e., ADC lending).
The guidance was issued because the agencies had observed that CRE concentrations had
been rising and could create safety and soundness concerns in the event of a significant
downturn.

The Joint Guidance states that rising CRE concentrations can expose institutions to
unanticipated earnings and capital volatility in the event of adverse changes in the general
CRE market. Earlier supervisory guidance emphasized that ADC lending is a highly
specialized field with inherent risks that must be managed and controlled to ensure that
this activity remains profitable.9 Supervisory guidance also states that an institution’s
Board is responsible for establishing appropriate risk limits, monitoring exposure, and
evaluating the effectiveness of the institution’s efforts to manage and control risk. As
discussed below, Eurobank failed to effectively manage and control risk associated with
its CRE and ADC portfolios, particularly as economic conditions on the island
deteriorated.

Due to the risks associated with CRE and ADC lending, regulators consider institutions
with significant CRE and ADC concentrations to be of greater supervisory concern. The
Joint Guidance defines institutions that may be identified for further supervisory analysis
of the level and nature of their concentration risk as those reporting loans for
construction, land and development, and other land (i.e., ADC) representing 100 percent
or more of total capital; or institutions reporting total CRE loans representing 300 percent
or more of total capital, where the outstanding balance of CRE has increased by 50
percent or more during the prior 36 months. As shown in Figure 2, Eurobank’s growth in
CRE lending in the years leading up to the issuance of the Joint Guidance caused it to
meet the threshold of possibly warranting increased supervisory attention. Eurobank’s


8
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).
9
  Financial Institution Letter (FIL)-110-98, entitled, Internal and Regulatory Guidelines for Managing
Risks Associated with Acquisition, Development, and Construction Lending, dated October 8, 1998.


                                                    7
concentrations of both CRE and ADC increased as a percentage of capital in 2009 and
2010 as losses from those portfolios eroded its capital base.

In the midst of a severe
economic decline in Puerto
Rico and absent effective
risk management practices,
Eurobank’s asset quality
rapidly deteriorated. The
volume of Adversely
Classified Items (ACI)
increased over 300 percent
from 2007 to 2008.
Specifically, as of
August 30, 2008, ACI
totaled $408 million or 181
percent of Tier 1 Capital
plus the Allowance for
Loan and Lease Losses
(ALLL) compared to $98
million or 47 percent as of
September 30, 2007. A
substantial part of the
increase came from the
ADC loan portfolio.
Although ADC loans
totaled approximately 14
percent of all loans, those
loans accounted for over
50 percent of total ACI.
Figure 3 shows the
breakdown of loan charge-
offs by loan type. As
discussed earlier, the majority of the CRE and all of the ADC charge-offs occurred in
2008 and 2009.




                                            8
Figure 3: Eurobank’s Net Charge-off on Loans and Leases, 2005 to 2009
                                           (Dollars in Thousands)




                                      $12,564
                                                                            $35,733




           $50,331

                                                                                      $24,111

                                                                       $4,860
                                                $23,078




      ADC Loans                        Other CRE                        1-4 Family
      Commercial & Industrial Loans    Leasing Financing Receivables    All other Loans

    Source: Call Reports for Eurobank.


Ultimately, the rapid decline in the CRE and ADC portfolios in 2008 and 2009
diminished Eurobank’s earnings, with operating losses beginning in 2008. As a result of
loan loss provision expenses, capital ultimately became inadequate to support the bank’s
high-risk profile.

Loan Underwriting and Credit Administration Practices

The Joint Guidance reiterates that concentrations in CRE lending, coupled with weak
loan underwriting and depressed CRE markets, contributed to significant credit losses in
the past. According to the Joint Guidance:

      strong risk management practices are an important element of a sound CRE lending
       program, particularly when an institution has a concentration in CRE loans;

      financial institutions with CRE concentrations should ensure that risk management
       practices appropriate to the size of the portfolio, as well as the level and nature of
       concentrations, and the associated risk to the institution are implemented; and

      financial institutions should establish a risk management framework that effectively
       identifies, monitors, and controls CRE concentration risk.

In addition, FIL-22-2008, Managing Commercial Real Estate Concentrations in a
Challenging Environment, issued March 17, 2008, provides key risk management
processes for institutions with CRE concentrations, including maintaining prudent, time-
tested lending policies with a strong credit review and risk rating system to identify
deteriorating credit trends early and maintaining updated financial and analytical


                                                           9
information for borrowers. For example, institutions should emphasize global financial
analysis of obligors, which involves analyzing borrowers’ complete financial resources
and obligations. The guidance further states that inappropriately adding extra interest
reserves on loans where the underlying real estate project is not performing as expected
can erode collateral protection and mask loans that would otherwise be reported as
delinquent.

Puerto Rico’s prolonged and severe economic recession led to rapid deterioration in the
ADC and CRE loan portfolios. However, management’s lack of response to deteriorating
economic conditions significantly contributed to the decline in asset quality experienced
by Eurobank. Despite repeated recommendations to enhance its internal loan review and
grading process, management did not timely identify loans adversely affected by the local
economic downturn and, as a result, failed to maintain an appropriate ALLL. Further,
management failed to properly manage the CRE and ADC portfolio as conditions
deteriorated. Management allowed new funding for interest reserves on raw land loans;
replenished interest reserves on extended ADC loans that were clearly troubled debt; in
certain cases, relied on nonconforming appraisals at loan origination or
renewal/extension, resulting in violations of law and contraventions of regulatory
guidance; and failed to monitor exceptions to regulatory loan-to-value (LTV) guidelines,
resulting in contravention of regulatory guidance and unknown exposure to value
declines.

Loan Underwriting and Credit Administration

Examples of deficient underwriting and credit administration practices identified by
examiners included the following:

Multiple Interest Reserves. Examiners in 2008 identified many instances in which the
Board approved multiple interest reserves on ADC loans that were clearly troubled,
lacked support from the guarantors, and were collateral dependent. In many cases, the
extensions were made without an updated appraisal despite a material change in market
conditions. In some instances, unsecured loans were made to the guarantor and/or
affiliated company, and the proceeds were used to keep existing loans current. Also, loan
extensions were made with new funding for interest reserves that resulted in LTV ratios
in excess of 100 percent. These practices were in violation of FDIC Rules and
Regulations Part 323, Appraisals and in nonconformance with Appendix A of Part 365,
Interagency Guidelines for Real Estate Lending Policies, as well as Eurobank’s loan
policy.

Weak Internal Controls. Eurobank failed to establish appropriate internal controls
related to its credit function. Specifically, Eurobank lacked an independent credit
function that analyzed proposed loans prior to submission to the Board for approval. In
addition, there was no separation of duties between the lending and loan administration
functions. For example, loan officers and their superiors prepared Board packages,
determined that Board-approval conditions were met prior to disbursement, and approved
disbursements with no evidence of review for compliance with Board-approved



                                            10
conditions and/or covenants. Further, loan officers approved disbursements with no
evidence that a project was within the approved budget.

Lack of Reporting to the Board. Beginning in 2008, management did not keep the
Board informed of the deteriorating conditions in the loan portfolio. Examination reports
indicated that there was an apparent lack of communication between the Board, senior
management, and middle management. For example, the bank’s loan policy called for a
monthly status report on troubled ADC loans by the bank’s senior ADC loan officer.
However, management confirmed that these reports were not made to the Board, despite
obvious deterioration in the ADC portfolio. Eurobank’s loan policy also called for the
monthly submission of flow charts, which were intended to track progress on
development projects, and also required that credit files include periodic narrative
summaries for each ADC loan retained. Management also failed to comply with these
requirements.

Failure to Obtain Updated Appraisals. The 2008 examination reported that Eurobank
was in apparent violation of section 323.3(a)(7) of the FDIC Rules and Regulations,
which states, in part, that an appraisal is required for all real estate-related financial
transactions in excess of $250,000 except those in which the transaction involves an
existing extension of credit at the lending institution, provided that there have been no
obvious and material change in market conditions or physical aspects of the property that
threatens the adequacy of the institution's real estate collateral protection after the
transaction, even with the advancement of new monies. Eurobank extended new
financing for 11 loans without obtaining a new appraisal, although material declines in
the residential real estate market in Puerto Rico were evident.

Deficient Appraisal Review. The bank’s appraisal review process was flawed and the
loan review function lacked expertise in appraisal review. This deficiency contributed to
the understatement of the estimated loss incurred for loans that were impaired and
collateral dependent. In addition, the bank was in apparent contravention of the
Interagency Appraisal and Evaluation Guidelines, as several appraisals for ADC loans
did not include the current market value of the property in its actual physical condition.
Appraisals were accepted that did not meet regulatory standards by the bank's appraisal
reviewer, which in turn led to underwriting decisions based on inaccurate information. In
2008, examiners recommended that the bank undertake a comprehensive review of its
appraisal review function to ensure that appraisals were based on regulatory standards
and subsequent loss estimations were accurate.

Insufficient Loan Policy. The 2007 examination reported that Eurobank’s loan policy
needed to be revised in order to adequately address the requirements of Appendix A to
the FDIC's Rules and Regulations Part 365, Interagency Guidelines for Real Estate
Lending Policies. The policy was insufficient to ensure that proper tracking and
monitoring procedures were in place to monitor LTV limitations and compliance with
capital thresholds. Further, the policy needed to be improved to specify the level and
types of loans deemed appropriate, and establish a reporting arrangement so that the




                                            11
Board could review compliance with guidelines and respond timely to changing
economic conditions.

Weak Internal Loan Review. During the 2007 and 2008 examinations, examiners
identified significantly more adversely classified loans than recognized by the bank's
internal loan review. During the 2007 examination, eight commercial loans aggregating
$43.2 million had not been properly classified by management, of which $32.1 million or
74 percent were adversely classified construction loans. Examiners also identified
construction loans that warranted a substandard classification that were not adversely
classified, or included on the bank’s Watch List as special mention. In 2008, Eurobank
had difficulty providing a list of its largest credit relationships, which likely impeded its
internal loan review process. The timely identification and accurate classification of
problem loans is critical to an adequate ALLL level.

Allowance for Loan and Lease Losses

On December 13, 2006, the federal banking regulatory agencies issued an Interagency
Policy Statement on the Allowance for Loan and Lease Losses (ALLL Policy Statement)
that reiterated key concepts and requirements related to generally accepted accounting
principles10 and existing supervisory guidance. Specifically, the ALLL Policy Statement
describes the nature and purpose of the ALLL; the responsibilities of boards of directors,
management, and examiners; factors to be considered in the estimation of the ALLL; and
the objectives and elements of an effective loan review system, including a sound credit
grading system. An institution’s process for determining the ALLL should be based on a
comprehensive, well-documented, and consistently applied analysis of its loan portfolio
that considers all significant factors that affect collectability. That analysis should
include an assessment of changes in economic conditions and collateral values and their
direct impact on credit quality. If declining credit quality trends relevant to the types of
loans in an institution’s portfolio are evident, the ALLL level as a percentage of the
portfolio should generally increase, barring unusual charge-off activity.

Eurobank’s methodology for determining its ALLL was hampered due to the weak
internal loan review process described in the prior section of this report. Examiners
reported weaknesses and/or made recommendations regarding Eurobank’s ALLL at each
examination from 2005 to 2009. For example,

    2005 -- Examiners recommended that management take into account recent trends
     and growth patterns in different unclassified loan categories in calculating the
     adequacy of the ALLL. They also recommended improving the back-up
     documentation used to calculate the adequacy of the ALLL.


10
  In 2009, the accounting standards were codified. Former Statement of Financial Accounting Standards
(FAS) No. 5, Accounting for Contingencies, is now covered in Accounting Standard Codification (ASC)
Subtopic 450-20. Former FAS No. 114, Accounting by Creditors for Impairment of a Loan, is now covered
in ASC 310-10-35. These standards provide accounting guidance for loss contingencies on a pool basis
and impairment of loans on an individual basis, respectively.


                                                 12
    2006 -- Eurobank’s June 30, 2006 internal loan review did not identify any losses in
     the commercial loan category. However, the examiners identified losses of
     $1.4 million during the examination. Furthermore, examiners moved a number of
     classified loans to a lower classification category. As a result, the ALLL was under
     funded by $760,000.

    2007 -- Examiners found the ALLL level to be appropriate. However, they reported
     that the internal loan review process needed improvement. Examiners recommended
     that management formalize the lines of communications between loan officers,
     managers, and the internal loan review department in order to identify problem
     credits in a timely manner. The timely identification and accurate classification of
     problem loans is critical to an adequate ALLL level.

    2008 -- Due to the increasing trend in adversely classified, past due, and non accrual
     loans, and the understated estimations of loss in the ADC portfolio, the ALLL
     balance was deemed insufficient to absorb the risk of loss in the loan portfolio.
     Examiners noted that the continuing problems in the construction sector of the Puerto
     Rico economy would continue to negatively affect the bank’s ADC portfolio, as
     slower housing sales and higher holding costs would result in higher loss estimates.
     Thus, Eurobank would have to review FASB 114 estimations of loss each quarter to
     determine their adequacy.

    2009 -- Examiners reported that the main reason for the inadequate ALLL was
     management’s inability to identify problem loans due to an inadequate loan
     monitoring system. Also, the bank’s ALLL policy guidance did not provide
     procedures for determining when a loan was impaired or for calculating impairment.

Reliance on Wholesale Funding Sources

As discussed earlier in the report, banks in Puerto Rico are highly dependent on brokered
deposits due to the challenges banks on the island faced attracting core deposits.
Notably, the repeal of Section 936, as well as competition from “cooperativas” and
PRICs contributed to the banks’ increased dependence on brokered deposits. As such,
Eurobank became reliant on wholesale funding sources, particularly brokered deposits
and Federal Funds,11 to support its asset growth. Figure 4 shows brokered deposits as a
percentage of total deposits for Eurobank, Puerto Rico banks, and Eurobank’s peer group.




11
 Federal funds, or Fed Funds, are unsecured loans of reserve balances at Federal Reserve Banks that
depository institutions make to one another.


                                                   13
Figure 4: Brokered Deposits as a Percentage of Total Deposits, 2004 to 2010
               80.00

               70.00

               60.00

               50.00
  Percentage




               40.00

               30.00

               20.00

               10.00

                0.00
                   Dec-04      Dec-05            Dec-06        Dec-07           Dec-08            Dec-09

                                     Eurobank      Puerto Rico Banks       Peer Group

Source: UBPRs for Eurobank.

Eurobank more than doubled its brokered deposits from $511 million in December 2004
to a high of $1.4 billion in December 2008. Placing heavy reliance on volatile funding
sources to support asset growth is risky because access to these funds may become
limited during distressed financial or economic conditions. Table 2 illustrates
Eurobank’s net non-core funding dependency ratios between December 2004 and the
bank’s failure. During this period, Eurobank’s net non-core funding dependency ratio
consistently and significantly exceeded its Puerto Rican peer group averages for such
funding sources. The net non-core funding dependency ratio is a measure of the degree
to which an institution relies on non-core funding to support longer-term assets (e.g.,
loans that mature in more than 1 year). An elevated ratio reflects heavy reliance on
potentially volatile funding sources that may not be available in times of financial stress.

Table 2: Eurobank’s Net Non-Core Funding Dependency Ratio Compared to Peer,
         2005 to 2010
                            Mar-10      Dec-09       Dec-08       Dec-07      Dec-06     Dec-05
Eurobank               81.65             80.86        82.51        79.95       74.31      66.81
State Peer Group*      63.17             59.25        68.56        65.52       69.34      69.81
Source: UBPRs for Eurobank.
* Puerto Rico

The FDIC’s Rules and Regulations Part 337, Unsafe and Unsound Banking Practices,
states that any Well Capitalized insured depository institution may solicit and accept,
renew, or roll over any brokered deposits without restriction. Under the FDIC’s Rules
and Regulations, restrictions on brokered deposits are imposed when an institution falls
below Well Capitalized. Under Part 337, Adequately Capitalized institutions may


                                                     14
request a waiver from this prohibition; however, Undercapitalized institutions are
prohibited from obtaining or rolling over brokered deposits. As its condition deteriorated
due to Puerto Rico’s economic distress, Eurobank indeed became concerned that it could
be required to sell assets at a loss in order to fund broker deposit withdrawals and other
liquidity needs if the FDIC did not grant a waiver for the renewal of maturing brokered
deposits. As discussed later in this report, Eurobank’s capital level fell from Well
Capitalized to Adequately Capitalized, and the bank did become dependent on FDIC’s
approval of a broker deposit waiver in order to meet liquidity needs and remain viable.


The FDIC’s Supervision of Eurobank

Our review focused on the period from 2005 to 2010, and, during that period, the FDIC
and OCFI conducted timely examinations of Eurobank. Notably, in 2006, the FDIC’s
New York Regional Office (NYRO) recognized the need to closely monitor economic
and banking trends in Puerto Rico, and those monitoring efforts led to the development of
a comprehensive supervisory strategy for Puerto Rico in 2008 and 2009. As part of that
broader strategy, the FDIC’s supervisory attention to Eurobank was extensive and
comprised of the following elements: (1) annual onsite safety and soundness
examinations performed jointly with OCFI, (2) offsite monitoring activities, and
(3) targeted asset quality reviews (TAQR) and a horizontal review of loan
classifications.12 The FDIC’s supervisory strategy was also instrumental in implementing
a well-coordinated resolution of Eurobank, Westernbank, and R-G Premier when they
closed in April 2010.

Examiners downgraded the Management component in 2006, noting numerous oversight
deficiencies, including failure to implement promised corrective action for Bank Secrecy
Act (BSA)-related deficiencies; numerous apparent violations of law and regulation;
weaknesses in internal audit and management succession planning; and weaknesses in
risk management practices, including funds management, asset/liability management,
internal loan review and internal controls. Downgrading the Management component for
these weak practices was consistent with what is contemplated in the FDIC’s forward-
looking supervision program.

Weaknesses in risk management practices were repeated and more pronounced at the
2007 and 2008 examinations, and, consequently, the FDIC and OCFI progressively
downgraded component and composite ratings and used enforcement actions to secure
Eurobank’s correction of deficiencies. Separately, the FDIC also imposed an
enforcement action to address the bank’s non-compliance with the BSA. Although the
Board had implemented corrective action to reduce the exposure in its lease portfolio in
2005, it failed to adequately address supervisory recommendations and enforcement
measures in later years aimed at strengthening risk management practices, including

12
  Nine of the institutions in Puerto Rico were designated as Minority Depository Institutions (MDIs).
Recognizing the concentration of MDIs in Puerto Rico and the large asset size of these institutions, the
NYRO also held annual MDI conferences in Puerto Rico exclusively for these banks.


                                                     15
funds management, CRE and ADC lending and administration practices, internal loan
review, and internal controls.

A general lesson learned with respect to weaknesses in risk management practices,
particularly as they relate to the lending function in general and CRE and ADC
concentrations in particular, is that early supervisory intervention is prudent, even when
an institution is considered Well Capitalized and has few classified assets. The FDIC
began downgrading ratings at the 2006 examination and used enforcement actions to
secure corrective action in subsequent examinations. In hindsight, imposing a stronger
supervisory action in 2007 may have been prudent, taking into consideration:

   the vulnerability of CRE and ADC concentrations to economic cycles;

   that unique market factors made ADC lending in Puerto Rico even riskier than in
    other U.S. markets;

   the importance of strong underwriting and credit administration practices in
    mitigating risk;

   that Eurobank’s growth was being fueled, in large part, by brokered deposits and the
    bank was becoming increasingly reliant on volatile funding;

   the Board and management’s inadequate response to BSA-related deficiencies; and

   the importance of a strong internal loan review and grading system to ensure timely
    identification of developing problems and an accurate ALLL.

For example, the FDIC could have imposed a stronger supervisory action in 2007 to
address credit administration deficiencies identified at that examination and to require
additional capital, in light of weaknesses in asset quality and risk management practices.
Recognizing that banks in Puerto Rico faced unique challenges in attracting core
deposits, greater supervisory attention and earlier criticism of the bank’s overall liquidity
risk profile might also have been prudent. The FDIC has taken a number of actions to
address banks that have risk profiles similar to Eurobank, including instituting a training
initiative on forward-looking supervision and issuing additional supervisory guidance on
CRE and ADC concentrations and funds management.

Supervisory History

Examination History

From 2005 to 2010, the FDIC and OCFI completed four joint examinations and two
TAQRs of Eurobank. In addition, the FDIC monitored the bank’s financial condition
using various offsite monitoring tools. Table 3 provides the examination history of
Eurobank from 2005 to 2010.




                                             16
Table 3: Examination History of Eurobank, 2005 to 2010
                                                     Supervisory
            Examination                                Ratings
     Start Date    As of Date          Agency          (UFIRS)                Supervisory Action
    06/06/2005    03/31/2005         Joint           222221/2       None Applicable.
    08/31/2006    06/03/2006         Joint           223222/2       Cease & Desist Order (C&D) effective
                                                                    March 15, 2007.*
    10/29/2007      09/30/2007       Joint           333333/3       Bank Board Resolution (BBR) adopted
                                                                    August 22, 2008.**
    08/31/2008      06/30/2008       FDIC            N/A            A composite “4” interim downgrade was
                                     (TAQR)                         processed in February 2009.
    12/29/2008      09/30/2008       Joint           444443/4       C&D issued on October 9, 2009.
    09/28/2009      06/30/2009       Joint           554543/5       An interim downgrade was processed in
                                     (TAQR)                         December 2009.
Source: ROEs, enforcement actions, and problem bank memorandums for Eurobank.
*This C&D was a result of Bank Secrecy Act (BSA) and Anti-Money Laundering (AML) weaknesses noted in
the August 2006 examination (referred to in this report as the BSA Order). This order remained in effect
through the bank’s closure.
**BBR was adopted to address safety and soundness issues.

Offsite Monitoring

In addition to onsite examinations, the FDIC provided continuous offsite monitoring,
including periodic contact with bank management and analysis of Call Report data. The
offsite review program is designed to identify emerging supervisory concerns and
potential problems so that supervisory strategies can be adjusted appropriately. The
FDIC generates an offsite review list (ORL) each quarter and performs offsite reviews for
each bank that appears on the list. The findings of these reviews are factored into
examination schedules and other supervisory activities. The system-generated offsite
review list includes only institutions rated “1” and “2” that are either:

      identified by Statistical CAMELS Offsite Rating (SCOR) as having a 35 percent or
       higher probability of downgrade to “3” or worse, or

      identified in the Growth Monitoring System (GMS) as having a growth percentile of
       98 or 99.

The FDIC also has a model that measures a bank’s exposure to concentrations, the Real
Estate Stress Test (REST). Eurobank was included on the ORL each quarter between
September 30, 2005 and March 31, 2008, based on REST, GMS, and/or SCOR flags.
Normal follow-up through continued offsite monitoring and scheduled onsite
examinations was considered to be an appropriate supervisory strategy.

NYRO Supervisory Strategy for Puerto Rico

In March 2006, the NYRO Regional Risk Committee (RRC)13 decided to include Puerto
Rico as a unique risk area in its quarterly assessment due to emerging concerns associated
13
     FDIC’s policy requires that each region have an RRC.


                                                     17
with economic and banking conditions in Puerto Rico. According to FDIC guidance, the
mission of an RRC is to:

    review and evaluate regional economic and banking trends;

    develop follow-up strategies;

    allocate resources, where necessary, to implement follow-up strategies and actions;
     and

    prepare a regional matrix that summarizes the level of concern (i.e., magnitude of
     concern) and level of exposure (likely impact of adverse risk areas on the region’s
     banking industry).

Beginning with the March 2006 report, the NYRO RRC quarterly summary reports
reflect extensive discussions about economic conditions in Puerto Rico and planned
supervisory strategies. In June 2007, the NYRO decided to develop a separate
comprehensive supervisory strategy for Puerto Rico for the 2008 examination cycle
because economic data revealed 4 consecutive quarters of job losses.14 Further, the
region’s assessment of June 30, 2007 Call Report data showed signs of deterioration in
the financial performance of banks in Puerto Rico.

Specifically, earnings performance had significantly declined during 2007 due to
increased provision expenses associated with deterioration in asset quality. Puerto Rico
banks historically reported a past due ratio for consumer loans that greatly exceeded the
national median ratio. At the time, the NYRO was particularly concerned about the
potential risks associated with consumer loans. Specifically, the region was concerned
that overall growth in consumer lending in Puerto Rico, coupled with the extent of job
losses, would lead to additional asset quality problems in the future. Over the period of
2004-2009, the national median past due ratio for consumer loans ranged from a low of
1.65 percent as of year-end 2006 to a high of 1.97 percent at year-end 2009. During the
same time periods, the Puerto Rico banks reported a low of 3.73 percent in 2005 to a high
of 6.95 percent in 2007. The increase in the Puerto Rico past due levels was of
significant concern in 2006 as the Puerto Rico banks in aggregate had consumer loan
exposure close to 100 percent of their capital.

According to the September 2007 RRC Summary Report, the region was also beginning
to highlight trends in CRE and ADC concentrations in order to identify institutions with
concentrations above supervisory thresholds defined in the December 2006 Joint
Guidance. Concentrations were of heightened concern because Puerto Rico had lost jobs
for more than 2 consecutive quarters, which may have been indicative of a recession.
Further, the deteriorating trend showed signs of continuing.


14
  Another area of concern related to accounting issues that were identified in 2005 and early 2006
requiring a number of Puerto Rico banks to restate financial statements. Eurobank was not involved in the
restatement issue.


                                                   18
The 2008 NYRO Supervisory Strategy for Puerto Rico captured (1) an overall view of
identified risks for each of the banks; (2) a supervisory snapshot of each bank, including a
summary describing each bank’s primary business lines; and (3) resource needs. The
supervisory strategy was comprised of a combination of point-in-time examinations,
visitations, targeted reviews, horizontal reviews, and quarterly offsite analysis, with an
emphasis on evaluating asset quality. The strategy was implemented on January 1, 2008
and updated for 2009.

Another aspect of the region’s strategy involved regular communication with officials
from Puerto Rico’s Governor’s offices, including the Government Development Bank
(GDB), which operates in a role similar to that of a central bank to identify options for
reducing the volume of non-performing assets on the island. Efforts were also made to
jointly monitor economic conditions with GDB and OCFI to ensure effective
communication in the event of one or more bank failures.

Supervisory Response to Key Risks

The overall financial condition of Eurobank was considered satisfactory in 2005 and
2006. However, beginning in 2006, examiners downgraded management for weaknesses
in board oversight and operating management performance consistent with what is
contemplated in the FDIC’s forward-looking supervision program. Significant
weaknesses existed in the BSA program, and numerous recommendations were made to
improve risk management practices around the lending function. By 2007, the overall
condition of the bank had begun to deteriorate and weaknesses in risk management
practices remained uncorrected and more pronounced. As a result, examiners further
downgraded component and composite ratings; made recommendations aimed at
strengthening the bank’s loan underwriting, credit administration, and funds
management; and took progressively strong supervisory actions. Appendix 4 details
examiners’ comments related to key risks in examination reports issued from 2005 to
2008.

2005 Supervisory Activity

June Examination. Examiners concluded that the bank's overall financial condition was
satisfactory and assigned Eurobank a composite “2” rating. Although the bank had
experienced substantial growth over the past several years, the examination report noted
that the Board took an active role in guiding the bank’s affairs and was supported by a
competent management staff. Further, management had adjusted the senior staff
structure in line with the bank’s growth. However, examiners lowered Eurobank’s
Capital component rating from a “1” to “2” based on the bank’s increasing risk profile
and growth plans.

Additionally, examiners considered Eurobank’s risk management practices to be sound
for all material areas except for an issue related to the bank’s subprime automobile
leasing program, which the Board addressed. The 2005 examination report also made
recommendations related to the bank’s internal loan review process and calculation of
ALLL loss factors.


                                            19
With respect to liquidity, examiners noted that Eurobank’s net non-core funding
dependency had risen. The examination report noted that funding with large brokered
deposits from the U.S. was typical in Puerto Rico, and Eurobank’s net non-core funding
dependency was average for Puerto Rico banks. Examiners recommended that the bank
begin performing liquidity stress tests to ascertain whether the bank could withstand a
contraction in the brokered deposit market and improve Board reporting related to funds
management.

2006 Supervisory Activity

August Examination. Examiners again assigned Eurobank a composite “2” rating.
However, examiners downgraded the Management component rating to a “3” because of
less than satisfactory Board oversight and operating management performance.
Specifically, significant weaknesses existed in the BSA program, and numerous
recommendations were made to improve risk management practices around the lending
function. Despite an increase in adversely classified items and delinquent loans, asset
quality was rated satisfactory. Classifications were concentrated in commercial credits
and automobile leases, which represented 40 and 31 percent of total classified loans,
respectively. Automobile leasing represented the highest net losses within the loan
portfolio. The past due ratio had also increased to 6.14 percent from 5.24 percent at the
prior examination.15 The FDIC and OCFI concluded that the risk of material loss in the
past due loans was mitigated because the majority were secured by chattel mortgages16
on automobiles and real estate. Additionally, management had implemented a strategy to
gradually reduce the bank’s exposure to automobile leases, decreasing the portfolio by
$38 million between August 2005 and September 2006. The level of capital remained
satisfactory even though the bank’s risk profile had increased slightly since the previous
examination.

Liquidity also remained satisfactory and the examination report noted that the bank had
implemented a new liquidity measurement system and recommended that management
review current risk limits for liquidity and enhance its liquidity contingency plan and
stress testing techniques. Further, the examination report stated that the bank maintained
sufficient sources of secondary funding, including unsecured lines of credit and an
overdraft line with the Federal Reserve Bank. The bank also increased its FHLB
borrowing capacity during the examination.

2007 Supervisory Activity

Enforcement Action. Although management had initiated corrective action for many
BSA-related apparent violations and previously identified weaknesses, the 2007
examination stated that Eurobank’s system of internal controls for compliance with

15
   The number of past-due loans divided by the total number of current loans. This ratio is an indicator of
the quality of a bank’s loan portfolio.
16
   A mortgage on moveable goods or equipment. Chattel mortgages are often used for consumer credit
financing of automobiles.


                                                     20
BSA/AML was inadequate for the third consecutive examination. Accordingly, the
FDIC and OCFI pursued the BSA Order, which became effective on March 15, 2007.

October Examination. The 2007 examination found that the overall condition of the
bank had deteriorated and concluded that the deterioration was a reflection on the Board
and management’s less than satisfactory performance. Consequently, examiners
downgraded Eurobank to a composite “3” rating, signaling some degree of supervisory
concern and indicating that management may lack the ability or willingness to effectively
address weaknesses within appropriate time frames. Further, financial institutions with a
composite “3” rating are generally less capable of withstanding business fluctuations and
are more vulnerable to outside influences, and risk management practices may be less
than satisfactory relative to the institution’s size, complexity, and risk profile.

As such, the 2007 examination report stated that Eurobank needed to improve risk
management practices to better identify, measure, and control the risk to the bank.
Multiple risk management weaknesses were identified, including deficiencies related to
the bank’s internal loan review and loan grading systems, funds management, and
interest-rate risk management. Additionally, examiners stated that the bank’s strategic
plan needed to be revised to reflect more realistic asset growth expectations based on the
bank’s deteriorating condition and distressed economy.

The volume of adversely classified items also increased significantly between
examinations, rising from $45.7 million (as of June 30, 2006) to $98 million (as of
September 20, 2007). In addition, the classified items coverage ratio17 increased to
47 percent from 26 percent reported at the 2006 examination. The past due ratio reflected
an increasing trend for the third consecutive examination and delinquencies remained
centered in loans secured by real estate and automobile leases. The automobile lease
portfolio continued to generate the most losses within Eurobank’s loan and lease
portfolio. In general, the declining asset quality was attributed to the economic downturn
and its impact upon certain borrowers. Examiners also found that Eurobank’s net non-
core funding dependency had increased, with brokered deposits continuing to be the
bank’s primary funding source, representing approximately 66 percent of total deposits.
Notably, the examination report stated that the bank was fully dependent on the continued
availability and roll-over of brokered deposits to cover scheduled maturities due to the
large concentration of deposits maturing in the short-term and the limitation of additional
sources of liquidity.

Examiner recommendations focused on improving the internal loan review function and
enhancing the bank’s monitoring of adherence to real estate lending standards. Internal
loan review had failed to identify four construction loans classified Substandard by
examiners; adversely classified construction loans represented 54 percent of total
adversely classified loans, and these four loans represented two-thirds of total adversely
classified construction loans. Recommendations were also made to strengthen liquidity
policies, monitoring, and reporting, and to enhance the liquidity contingency plan


17
     This ratio is a measure of asset risk and the ability of capital to protect against risk.


                                                           21
because Eurobank’s plan failed to define adverse factors that could impair the current
liquidity position of the bank or include a stress test model.

With regard to the BSA Order, Board oversight in this area was found to be lacking,
systems of internal control remained inadequate, and management failed to comply with
provisions of the Order. Further, corrective actions noted in quarterly progress reports
were found to be unsupported. Accordingly, the BSA Order remained in effect.

2008 Supervisory Activity

Enforcement Action. In addition to the BSA Order, on August 22, 2008, the Board
adopted a BBR to address deficiencies disclosed in the 2007 examination. FDIC officials
explained that the decision to accept the BBR, in lieu of entering into to a memorandum
of understanding (MOU), was made after the exit meeting and took into consideration
Eurobank’s proactive stance and cooperation. According to the FDIC’s Formal and
Informal Action Procedures Manual (FIAP Manual), the FDIC may initiate informal
action when a financial institution is found to be in a marginally unsatisfactory condition
or to address specific concerns. Criteria outlined in the FIAP Manual states that a BBR
may be appropriate if an institution’s performance was of supervisory concern at a
previous examination, but past corrective action has been successful and remaining
concerns are minor. The FDIC generally uses an MOU instead of BBR when there is a
reason to believe the deficiencies noted during an examination need a more structured
program or specific terms to effect corrective action.

The BBR adopted by Eurobank required management to address: (1) apparent violations
of rules and regulations related to the Puerto Rico Banking Law and apparent
contraventions, (2) adversely classified commercial loans and nonaccrual and delinquent
commercial loans, (3) credit risk management, (4) liquidity risk management policies in
order to reduce dependence on volatile funding sources and expand secondary sources of
liquidity and borrowing; and (5) capital levels to ensure that capital ratios remain Well
Capitalized for PCA purposes. The BBR also required Eurobank to provide quarterly
written progress reports.

August TAQR. The FDIC conducted its first TAQR of Eurobank in August 2008, which
was completed in December 2008. The results of the review indicated that Eurobank’s
asset quality had continued to deteriorate. Specifically, adversely classified loans
increased from 47 percent to 151 percent of Tier 1 Capital plus ALLL based on a
50-percent loan penetration. Examiners noted that problems manifested in the CRE loan
portfolio were a result of the economic environment in Puerto Rico. Additionally,
examiners concluded that there were numerous problems with the practices and
procedures for the credit function. For example, management extended new funding for
interest reserves on raw land loans; extended new funding for interest reserves on
troubled ADC loans; extended new funding for interest reserves on collateral-dependent,
troubled debt without obtaining new appraisals in violation of Part 323 of the FDIC Rules
and Regulations (Part 323); extended unsecured, interest-only loans to principals of ADC
projects where project interest reserves were depleted; relied upon nonconforming
appraisals at loan origination in violation of Part 323; failed to track exceptions to


                                            22
interagency LTV limitations in nonconformance with Real Estate Lending Standards,
Part 365 of the FDIC’s Rules and Regulations; and failed to comply with the loan policy.

Although the parameters and methodology included in Eurobank’s ALLL policy were
satisfactory, the methods used by the bank to arrive at the “as is” or fair value of the
underlying collateral of impaired loans were based on flawed assumptions. The bank’s
FASB 114 analyses were so flawed that examiners gave management a list of 13
properties, totaling $93 million, which required independent appraisals. Those appraisals
were expected to be available for the scheduled “roll-up” examination set to begin on
December 28, 2008. Based on the results of the TAQR, examiners recommended that
Asset Quality be downgraded to a “4”. As discussed later in this report, the FDIC and
OCFI processed an interim composite downgrade in February 2009 based on the results
of this TAQR and offsite monitoring.

December Examination. The results of the 2008 joint examination, transmitted to the
bank on July 29, 2009, indicated that the overall financial condition of the bank continued
to significantly deteriorate and was deemed unsatisfactory. With respect to the BSA
Order, examination findings disclosed that the majority of management’s assertions
relative to corrective actions were inaccurate. Further, the examination report stated that
the Board and management had not satisfactorily addressed provisions of the August
BBR as evidenced by the deteriorated condition of the bank. In fact, several provisions
had received little, if any, attention. The 2008 examination report noted that credit risk
management practices were not improved, the budget process for 2009 relied on
unrealistic assumptions, and a liquidity stress model was not developed.

The examination report stated that the Board and management’s ability to effectively
oversee the operations of the bank was questionable given the significant deficiencies
related to the lending function, funds management, and BSA/AML compliance.
Although the downturn in the economy was cited as a contributing factor to Eurobank’s
asset quality problems, the examination report stated that poor underwriting and
inadequate credit administration problems contributed substantially to the bank’s troubled
condition. Examiners concluded that there were numerous problems with the practices
and procedures for the lending function, particularly related to the ADC portfolio. The
bank’s capital levels were still Well Capitalized for PCA purposes, but the examination
report noted that Eurobank’s deteriorating condition was seriously impacting the bank’s
ability to withstand the pending effects of continued losses associated with the ADC
portfolio and worsening economy.

Further, liquidity levels were determined to be inadequate to support weakening asset
quality and the bank's poor financial condition. Core deposits had continued to decline,
and dependence on brokered deposits and wholesale borrowings had increased.
Examiners were particularly concerned about Eurobank's continued ability to roll over
maturing brokered deposits, given adverse publicity, such as poor financial performance
reports, which could result in resistance from deposit brokers. Further, although the
Board had approved a Contingency Funding Plan on October 24, 2008, examiners
determined that the plan was not appropriate for the size and risk profile of the institution.



                                             23
The plan was general and focused on administrative details, and recommendations made
at the previous examination to prepare cash flow projections and to test contingent
funding plans were not addressed. Parameters to monitor liquidity stress events, such as
the inability to roll over maturing brokered deposits, had not been finalized, and cash
flow projections under any stress scenarios were not developed. The Liquidity Crisis
Task Force, established by the plan, had not met, and procedures had not been tested as
required.

2009 and 2010 Supervisory Activity

Interim Downgrades. During 2009, the FDIC processed two interim downgrades. First,
on February 13, 2009, the FDIC notified the bank that it was being downgraded from a
composite “3” to a “4” based on an offsite assessment of the bank’s December 31, 2008
Call Report and the findings of the August 2008 TAQR. In addition, the FDIC formally
notified the bank of its “troubled condition,” which imposed certain requirements with
respect to management changes and severance plans. Specifically, the bank had to notify
the FDIC in writing at least 30 days prior to certain management changes. Additionally,
the bank was required to file an application to obtain the FDIC’s consent prior to
(1) entering into any agreement to pay and (2) making any golden parachute payment or
excess nondiscriminatory severance plan payment to any institution-affiliated party. The
second interim rating change was based on a review of Eurobank’s September 30, 2009
Call Report and preliminary findings of the September 2009 TAQR. The Capital, Asset
Quality, and Earnings component ratings and the composite rating were downgraded to a
“5” in December 2009.

Enforcement Actions. The BSA Order remained in effect. The FDIC and OCFI also
issued a C&D on October 9, 2009, based on the results of the December 2008
examination. The C&D included provisions aimed at addressing cited deficiencies,
including Board oversight, management’s qualifications, loan policies and procedures,
lending and credit administration, the appraisal compliance program, classified assets,
ALLL, and funds management. The C&D also included a capital maintenance
requirement, which is discussed later in this report.

Further, after the completion of the onsite portion of the December 2008 examination, the
FDIC sent Eurobank a letter on April 29, 2009 to convey supervisory expectations and to
inform the bank that a formal corrective action was being recommended. The letter
stated that the bank was required to obtain a non-objection from the FDIC before
engaging in any transactions that materially changed the bank’s balance sheet
composition, including growth in total assets or significant changes in funding sources.

September TAQR. The second TAQR commenced on September 28, 2009 and was
completed in April 2010. FDIC officials explained that the scope of the review covered
the entire loan portfolio and proved to be challenging because most account officers were
unable to provide pertinent information or respond to examiner inquiries during loan
discussions. In many instances, examiners stated that they were more familiar with the
credits and related collateral than the lending staff. Further, the bank’s lack of sufficient
staff with adequate lending skills made it difficult, if not impossible, for the bank to


                                             24
effectively monitor and work out troubled loans. For example, the bank’s ADC portfolio
consisted of 72 loans, which were mostly problematic and being handled by only one
loan officer.

Based on the preliminary TAQR findings, it appeared that the bank would become
Critically Undercapitalized. FDIC officials informed us that the results of the TAQR
were analyzed closely in early 2010 because of the significant difference between
examiners’ and the banks’ internal classifications at Eurobank, Westernbank, and R-G
Premier. While examiners were completing the TAQR, examiners conducted a
horizontal review in January 2010 to ensure that classifications of CRE loans at these
three banks were consistent. Ultimately, based on the results the TAQR, Eurobank’s
capital levels fell to Critically Undercapitalized after the bank increased the ALLL and
provision expense to reflect those results.

Brokered Deposit Waivers. On August 6, 2009, the FDIC notified the Board that the
bank was designated Adequately Capitalized based on the filing of the bank’s June 30,
2009 Call Report, prompting the need for a brokered deposit waiver. Additionally, the
October 2009 C&D included a capital provision, which by definition lowers an otherwise
Well Capitalized institution to Adequately Capitalized. The FDIC approved three
brokered deposit waivers between October 2009 and March 2010, as follows:

    October 9, 2009. The FDIC approved a limited broker deposit waiver request
     submitted in August 2009 allowing Eurobank to renew and/or roll over brokered
     deposits that matured through November 30, 2009.

    December 30, 2009. The FDIC approved a second limited brokered deposit waiver,
     which allowed the bank to renew and/or roll over brokered deposits maturing through
     March 21, 2010.

    March 29, 2010. The FDIC approved a third limited broker deposit waiver allowing
     Eurobank to renew and/or roll over 75 percent or up to $27 million of brokered
     deposits that matured in April 2010. The waiver notification also stated that the
     waiver would terminate immediately if the bank became less than Adequately
     Capitalized under PCA guidelines.

In each case, the FDIC concluded that the brokered deposit waiver would not result in an
unsafe or unsound practice. In general, the waivers were for 90-day periods and limited
Eurobank to issuing or rolling over approximately 40 percent of maturing broker
deposits. In addition, on November 9, 2009, Eurobank submitted to the FDIC its Funds
Management and Liquidity Plan that described the bank’s planned reduction of brokered
deposits. Eurobank provided an updated plan on December 8, 2009. According to
Part 325 of the FDIC’s Rules and Regulations,18 a bank is deemed to be within a given
capital category for purposes of section 38 of the FDI Act as of the most recent date:

18
  For purposes of section 29 of the FDI Act and section 337.6, the terms Well Capitalized, Adequately
Capitalized, and Undercapitalized, have the same meaning as to each insured depository institution as
provided under regulations implementing section 38 of the FDI Act.


                                                   25
   a Call Report is required to be filed with the FDIC;

   a final report of examination is delivered to the bank; or

   written notice is provided by the FDIC to the bank of its capital category for purposes
    of section 38 of the FDI Act.

In this case, the FDIC did not hold an exit meeting with management to discuss findings
of the 2009 examination until April 28, 2010 and, at that time, hand-delivered a letter
notifying the bank of its new PCA Capital category, Critically Undercapitalized, and
related brokered deposit restrictions.

Supervisory Lessons Learned

According to the FDIC’s Risk Management Manual of Examination Policies
(Examination Manual), the quality of an institution‘s management, including its Board of
Directors and executive officers, is perhaps the single most important element in the
successful operation of a bank. The Board has overall responsibility and authority for
formulating sound policies and objectives for the bank and for effectively supervising the
institution’s affairs. The Examination Manual further states that:

       …to effectively prevent serious problems in an institution, the conditions and
       circumstances that may lead to problems must be identified and corrected early.
       Corrective action should be taken immediately upon identifying excessive risk
       taking…when corrective action is not taken until conditions have deteriorated it is
       often too late to avoid failure. Moral suasion and informal agreements are
       normally sufficient where the unacceptable risk-taking is identified early, but
       formal action must be considered, even when an institution is rated 1 or 2, if
       circumstances warrant.

The FDIC downgraded Eurobank’s component ratings in the 2006 examination and
further downgraded the bank in 2007, accepting a BBR adopted by the Board following
the examination to address identified deficiencies. However, the Board and management
did not satisfactorily address provisions of the BBR and, consequently, the FDIC
progressively downgraded the bank and took stronger enforcement action to secure
correction of weaknesses in risk management practices in subsequent examinations. In
hindsight, pursuing an MOU following the 2007 examination may have been more
effective in obtaining management’s commitment and follow-through to address
deficiencies identified by examiners. A more structured supervisory action may have
been called for considering the Board and management’s inadequate response to BSA-
related actions. Additionally, the FDIC could have required Eurobank to increase its
capital levels above what is minimally required for a bank to maintain a Well Capitalized
level. These steps may have served to limit the amount of loss that was experienced on
the work-out of the troubled ADC credits.

In addition, stronger attention to Eurobank’s increasing dependence on brokered deposits
may have been prudent. Specifically, examiners made repeated recommendations to


                                             26
bank management to strengthen its liquidity stress testing and liquidity contingency plan.
Additional emphasis in the form of an informal enforcement action might have been
beneficial in prompting the bank to take earlier action to reduce its dependence on this
funding and be equipped to remain viable in a declining economy and real estate market.

The FDIC has taken a number of actions to increase supervisory attention to banks that
have risk profiles similar to Eurobank. Of note, in March 2010, the FDIC completed a
training initiative for its entire supervisory workforce that emphasizes the need to assess a
bank’s risk profile using forward-looking supervision. The FDIC has also issued updated
guidance to examiners regarding CRE loan examination procedures in view of more
challenging market conditions, particularly in ADC lending, and supervisory expectations
for FDIC-supervised institutions to update real estate appraisals and evaluations.

In August 2008, the FDIC issued FIL-84-2008, entitled, Liquidity Risk Management,
which stresses the importance of contingency funding plans for institutions that use
wholesale funding sources, including brokered deposits. In addition, in March 2009, the
FDIC issued FIL 13-2009, entitled, The Use of Volatile or Special Funding Sources by
Financial Institutions that are in Weakened Condition. FIL 13-2009 states that
FDIC-supervised institutions having a composite rating of “3,” “4,” or “5” are expected
to establish and implement appropriate plans to mitigate the risks associated with the use
of potentially volatile liabilities.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The
section requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of section
38 is to resolve problems of insured depository institutions at the least possible long-term
cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations
defines the capital measures used in determining the supervisory actions that will be
taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also establishes
procedures for the submission and review of Capital Restoration Plans (CRP) and for the
issuance of directives and orders pursuant to section 38. The FDIC is required to closely
monitor the institution’s compliance with its capital restoration plan, mandatory
restrictions defined under section 38(e), and discretionary safeguards imposed by the
FDIC (if any) to determine if the purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to Eurobank, the FDIC properly
implemented applicable PCA provisions of section 38. Among other things, the FDIC
formally notified the bank when its capital category changed, reviewed and monitored the
institution’s Call Report and liquidity reports; and conducted periodic discussions with
management regarding plans to raise capital and compliance with PCA restrictions,
including associated restrictions on brokered deposits as discussed previously in this




                                             27
report. Table 4 illustrates the significant decline in Eurobank’s capital levels from 2005
to 2009.19

Table 4: Eurobank’s Capital Levels, 2005 to 2009
                                    Tier 1 Total
                          Tier 1     Risk-   Risk-                        Capital
   Exam/Visit Date     Leverage Based Based                            Classification
Well-Capitalized Threshold        ≥ 5%         ≥ 6%      ≥ 10%
6/6/2005 Joint Examination              6.6      8.38      10.56   Well Capitalized
8/31/2006 Joint Examination            6.47       8.4      10.43   Well Capitalized
10/29/2007 Joint Examination           7.29      8.93      10.08   Well Capitalized
12/29/2008 Joint Examination           6.81      9.41      10.66   Well Capitalized
6/30/2009 Call Report                  5.66      8.46       9.71   Adequately Capitalized
9/30/2009 Call Report                 5.50       8.81      10.06   Well Capitalized*
9/28/2009 Joint TAQR**                 0.53      0.87       1.74   Critically Undercapitalized
Source: Examination reports, TAQRs, and Call Reports for Eurobank.
*Once Eurobank became subject to a C&D that addressed the capital level on October 9, 2009, by
definition, the bank became Adequately Capitalized.
**Results complete in April 2010.

Eurobank was considered Well Capitalized for PCA purposes until August 2009, when
the bank fell to Adequately Capitalized based on its June 30, 2009 Call Report, and
subsequently as a result of the October C&D that included a capital maintenance
provision. With respect to capital, the C&D directed Eurobank to:

 on or before December 31, 2009, increase and maintain a Tier 1 Leverage Capital ratio
     equal or above 6.5 percent and a Total Risk-Based Capital ratio equal or above 11
     percent; and

 on or before March 31, 2010, increase and maintain a Tier 1 Leverage Capital ratio
     above 7 percent and a Total Risk-Based Capital ratio above 11 percent.

The C&D also required Eurobank to develop a plan within 30 days of the C&D to reduce
its reliance on non-core funding and high-cost, rate-sensitive deposits and set forth
funding sources that would replace the Bank's current brokered deposits as they matured.
The FDIC’s efforts to monitor Eurobank’s capital position and the bank’s response to the
C&D included the following:

 January 26, 2010. The FDIC sent a letter to Eurobank notifying the bank that its
     December 31, 2009 Call Report capital ratios were less than those required by the
     C&D and, therefore, the bank was required to submit a plan to increase capital ratios
     within 30 days.



19
  Eurobank had submitted an application for the Troubled Asset Relief Program on November 10, 2008 for
funding of $60 million; however, the bank subsequently withdrew its application on June 1, 2009.



                                                  28
 February 1, 2010. Eurobank officials met with FDIC officials to discuss the bank’s
  capital-raising prospects.

 April 1, 2010. Eurobank presented its capital plan to the FDIC and OCFI.

 April 16, 2010. The FDIC sent a letter notifying Eurobank that the bank’s capital plan
  presented on April 1, 2010 was rejected and advised Eurobank that it needed to
  immediately provide its recapitalization plan or sell/merge with another federally
  insured depository institution.

On April 28, 2010, the FDIC notified Eurobank that it had fallen to Critically
Undercapitalized based on TAQR findings. The FDIC’s PCA notification letter outlined
restrictions pursuant to Part 325 of the FDIC’s Rules and Regulations. Eurobank was
restricted from accepting, renewing, or rolling over any brokered deposits, and waivers
from this prohibition were unavailable. Although the letter required Eurobank to submit
a capital restoration plan within 45 days of the date of the letter, regulators had already
concluded that Eurobank was unable to raise the level of capital required. Within 2 days
of the PCA letter, OCFI closed Eurobank on April 30, 2010.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
December 2, 2010, the Director, DSC, provided a written response to the draft report.
That response is provided in its entirety as Appendix 5 of this report. DSC reiterated the
OIG’s conclusions regarding the causes of Eurobank’s failure. With regard to our
assessment of the FDIC’s supervision of Eurobank, DSC described its supervisory
approach and actions taken in response to weaknesses in the bank’s risk management
practices, including rating downgrades and use of enforcement actions between 2006 and
2010, as discussed in our report. DSC’s response noted that Eurobank’s Board and
management failed to adequately address supervisory recommendations and enforcement
measures. Further, DSC’s response stated that supervisory guidance has been issued to
enhance supervision of institutions, such as Eurobank, that rely heavily on volatile
funding sources. In addition, DSC stated it has completed an examiner training program,
as discussed in our report, which emphasizes a forward-looking approach when assessing
a bank’s risk profile. The early use of informal enforcement actions to pursue corrective
of weak risk management practices is consistent with forward-looking supervision.




                                            29
                                                                               Appendix 1

                     Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the Deposit Insurance Fund
incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency
reviewing the agency’s supervision of the institution. The Financial Reform Act amends
section 38(k) of the FDI Act by increasing the MLR threshold from $25 million to $200
million for losses that occur for the period January 1, 2010 through December 31, 2011.
The FDI Act requires that the report be completed within 6 months after it becomes
apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from July 2010 to November 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Eurobank’s operations from December 31,
2005 until its failure on April 30, 2010. Our review also entailed an evaluation of the
regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by the FDIC and the OCFI examiners
         from 2005 to 2009.

        Reviewed the following:

              Bank data and correspondence maintained at the FDIC New York Regional
               Office and San Juan, Puerto Rico, Field Office.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.

              Pertinent DSC policies and procedures and various banking laws and
               regulations.



                                             30
                                                                             Appendix 1

                     Objectives, Scope, and Methodology

        Interviewed the following FDIC officials:

              DSC management in Washington, D.C., the New York Regional Office, and
               San Juan, Puerto Rico Field Office.

              FDIC examiners from the Jamesburg, New Jersey and San Juan Puerto Rico
               Field Offices, who participated in examinations or reviews of examinations
               of Eurobank.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand Eurobank’s management controls pertaining to
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.


Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related


                                             31
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives of
which are to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in
May 2010, the OIG initiated an evaluation of the role and federal regulators’ use of the
Prompt Regulatory Action provisions of the FDI Act (section 38, PCA and section 39,
Standards for Safety and Soundness) in the banking crisis.




                                            32
                                                                                 Appendix 2

                               Glossary of Terms

Term                                               Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development,     funding for acquiring and developing land for future construction, and that
and              provide interim financing for residential or commercial structures.
Construction
(ADC) Loans
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease   book value of loans and leases to the amount that is expected to be
Losses (ALLL)    collected. It is established in recognition that some loans in the institution’s
                 overall loan and lease portfolio will not be repaid. Boards of directors are
                 responsible for ensuring that their institutions have controls in place to
                 consistently determine the allowance in accordance with the institutions’
                 stated policies and procedures, generally accepted accounting principles,
                 and supervisory guidance.

Bank Board       A Bank Board Resolution is an informal commitment adopted by a financial
Resolution       institution’s Board of Directors (often at the request of the FDIC) directing
(BBR)            the institution’s personnel to take corrective action regarding specific noted
                 deficiencies. A BBR may also be used as a tool to strengthen and monitor
                 the institution’s progress with regard to a particular component rating or
                 activity.
Bank Secrecy     Congress enacted the BSA of 1970 to prevent banks and other financial
Act (BSA)        service providers from being used as intermediaries for, or to hide the
                 transfer or deposit of money derived from, criminal activity. The BSA
                 requires financial institutions to maintain appropriate records and to file
                 certain reports, including cash transactions over $10,000 via the Currency
                 Transactions Reports (CTR). These reports are used in criminal, tax, or
                 regulatory investigations or proceedings.
Call Report      Reports of Condition and Income, often referred to as Call Reports, include
                 basic financial data for insured commercial banks in the form of a balance
                 sheet, an income statement, and supporting schedules. According to the
                 Federal Financial Institutions Examination Council’s (FFIEC) instructions
                 for preparing Call Reports, national banks, state member banks, and insured
                 nonmember banks are required to submit a Call Report to the FFIEC’s
                 Central Data Repository (an Internet-based system used for data collection)
                 as of the close of business on the last day of each calendar quarter.




                                            33
                                                                                  Appendix 2

                                Glossary of Terms


Cease and         A C&D is a formal enforcement action issued by a financial institution
Desist Order      regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
(C&D)             stop an unsafe or unsound practice or a violation of laws and regulations. A
                  C&D may be terminated when the bank’s condition has significantly
                  improved and the action is no longer needed or the bank has materially
                  complied with its terms.

Commercial        CRE loans are land development and construction loans (including 1-to-4
Real Estate       family residential and commercial construction loans) and other land loans.
(CRE) Loans       CRE loans also include loans secured by multifamily property and nonfarm
                  nonresidential property, where the primary source of repayment is derived
                  from rental income associated with the property or the proceeds of the sale,
                  refinancing, or permanent financing of the property.

Concentration     A concentration is a significantly large volume of economically related
                  assets that an institution has advanced or committed to a certain industry,
                  person, entity, or affiliated group. These assets may, in the aggregate,
                  present a substantial risk to the safety and soundness of the institution.

Contingency       A written plan that defines strategies for addressing liquidity shortfalls in
Funding (or       emergency situations. Such plans delineate policies to manage a range of
Liquidity) Plan   stress environments, establish clear lines of responsibility, and articulate
                  clear implementation and escalation procedures. Contingency funding
                  plans should be regularly tested and updated to ensure that they are
                  operationally sound. DSC uses the term contingency funding plan and
                  contingency liquidity plan interchangeably.

FDIC’s            The FDIC’s supervision program promotes the safety and soundness of
Supervision       FDIC-supervised institutions, protects consumers’ rights, and promotes
Program           community investment initiatives by FDIC-supervised institutions. The
                  FDIC’s Division of Supervision and Consumer Protection (DSC) (1)
                  performs examinations of FDIC-supervised institutions to assess their
                  overall financial condition, management policies and practices (including
                  internal control systems), and compliance with applicable laws and
                  regulations and (2) issues related guidance to institutions and examiners.

Federal Home      FHLBs provide long- and short-term advances (loans) to their members.
Loan Bank         Advances are primarily collateralized by residential mortgage loans, and
(FHLB)            government and agency securities. Community financial institutions may
                  pledge small business, small farm, and small agri-business loans as
                  collateral for advances. Advances are priced at a small spread over
                  comparable U.S. Department of the Treasury obligations.




                                             34
                                                                                 Appendix 2

                              Glossary of Terms


Global Cash      A global cash flow analysis is a comprehensive evaluation of borrower
Flow Analysis    capacity to perform on a loan. During underwriting, proper global cash
                 flow must thoroughly analyze projected cash flow and guarantor support.
                 Beyond the individual loan, global cash flow must consider all other
                 relevant factors, including: guarantor’s related debt at other financial
                 institutions, future economic conditions, as well as obtaining current and
                 complete operating statements of all related entities. In addition, global
                 cash flow analysis should be routinely conducted as a part of credit
                 administration. The extent and frequency of global cash flow analysis
                 should be commensurate to the amount of risk associated with a particular
                 loan.

Growth           GMS is an offsite rating tool that identifies institutions experiencing rapid
Monitoring       growth or having a funding structure highly dependent on non-core funding
System (GMS)     sources.

Loan-to-Value    A ratio for a single loan and property calculated by dividing the total loan
                 amount at origination by the market value of the property securing the
                 credit plus any readily marketable collateral or other acceptable collateral.

Material Loss    As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                 Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                 period beginning January 1, 2010 and ending December 31, 2011, a
                 material loss is defined as any estimated loss in excess of $200 million.

Memorandum       A Memorandum of Understanding is an informal agreement between the
of               institution and the FDIC, which is signed by both parties. The State
Understanding    Authority may also be party to the agreement. MOUs are designed to
(MOU)            address and correct identified weaknesses in an institution’s condition.

Nonaccrual       The status of an asset, often a loan, which is not earning the contractual rate
Status           of interest in the loan agreement, due to financial difficulties of the
                 borrower. Typically, interest accruals have been suspended because full
                 collection of principal is in doubt, or interest payments have not been made
                 for a sustained period of time. Loans with principal and interest unpaid for
                 at least 90 days are generally considered to be in a nonaccrual status.

Offsite Review   The FDIC’s Offsite Review Program is designed to identify emerging
Program          supervisory concerns and potential problems so that supervisory strategies
                 can be adjusted appropriately. Offsite reviews are performed quarterly for
                 each bank that appears on the Offsite Review List. Regional management is
                 responsible for implementing procedures to ensure that Offsite Review
                 findings are factored into examination schedules and other supervisory
                 activities.

Peer Group       Institutions are assigned to 1 of 15 peer groups based on asset size, number
                 of branches, and whether the institution is located in a metropolitan or non-
                 metropolitan area.


                                            35
                                                                                  Appendix 2

                               Glossary of Terms

Problem Bank      A problem bank memorandum documents the FDIC’s concerns with an
Memorandum        institution and the corrective action in place or to be implemented and is
                  also used to effect interim rating changes on the FDIC’s systems.

Prompt            The purpose of PCA is to resolve the problems of insured depository
Corrective        institutions at the least possible long-term cost to the Deposit Insurance
Action (PCA)      Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of
                  Federal Regulations, section 325.101, et. seq., implements section 38,
                  Prompt Corrective Action, of the FDI Act, 12 United States Code section
                  1831(o), by establishing a framework for determining capital adequacy and
                  taking supervisory actions against depository institutions that are in an
                  unsafe or unsound condition. The following terms are used to describe
                  capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                  (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                  Undercapitalized.

                  A PCA Directive is a formal enforcement action seeking corrective action
                  or compliance with the PCA statute with respect to an institution that falls
                  within any of the three categories of undercapitalized institutions.

Real Estate       REST attempts to simulate what would happen to banks today if they
Stress Test       encountered a real estate crisis similar to that of New England in the early
(REST)            1990s. REST uses statistical techniques to forecast an institution’s
                  condition over a 3- to 5-year horizon and provides a single rating from 1 to
                  5 in descending order of performance quality.

Risk-Based        A “supplemental” capital standard under Part 325 of the FDIC’s Rules and
Capital           Regulations. Under the risk-based framework, a bank’s qualifying total
                  capital base consists of two types of capital elements, “core capital” (Tier 1)
                  and “supplementary capital” (Tier 2).

Special Mention   A Special Mention asset has potential weaknesses that deserve
Assets            management’s close attention. If left uncorrected, these potential
                  weaknesses may result in deterioration of the repayment prospects for the
                  asset or in the institution's credit position at some future date. Special
                  Mention assets are not adversely classified and do not expose an institution
                  to sufficient risk to warrant adverse classification.

Statistical       SCOR is a financial model that uses statistical techniques, offsite data, and
CAMELS            historical examination results to measure the likelihood that an institution
Offsite Rating    will receive a CAMELS downgrade at the next examination.
(SCOR) System




                                             36
                                                                                  Appendix 2

                               Glossary of Terms


Substandard      One of three types of classifications used by examiners to describe
                 adversely classified assets. The term is generally used to describe an asset
                 that is inadequately protected by the current sound worth and paying
                 capacity of the obligor or of the collateral pledged, if any. Substandard
                 assets have a well-defined weakness or weaknesses that jeopardize the
                 liquidation of the debt. Substandard assets are characterized by the distinct
                 possibility that the institution will sustain some loss if the deficiencies are
                 not corrected.

Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital          325.2(v), as
                 The sum of:
                 • Common stockholder’s equity (common stock and related surplus,
                 undivided profits, disclosed capital reserves, foreign currency translation
                 adjustments, less net unrealized losses on available-for-sale securities with
                 readily determinable market values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in securities subsidiaries subject to section 337.4; and
                 • Deferred tax assets in excess of the limit set forth in section 325.5(g).
Troubled Asset   TARP is a program of the United States Department of the Treasury to
Relief Program   purchase assets and equity from financial institutions to strengthen the
(TARP)           financial sector.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)    The report is produced by the Federal Financial Institutions Examination
                 Council for the use of banking supervisors, bankers, and the general public
                 and is produced quarterly from Call Report data submitted by banks.

Uniform          Financial institution regulators and examiners use the Uniform Financial
Financial        Institutions Rating System (UFIRS) to evaluate a bank’s performance in six
Institutions     components represented by the CAMELS acronym: Capital adequacy,
Rating System    Asset quality, Management practices, Earnings performance, Liquidity
                 position, and Sensitivity to market risk. Each component, and an overall
(UFIRS)
                 composite score, is assigned a rating of 1 through 5, with 1 having the least
                 regulatory concern and 5 having the greatest concern.




                                            37
                                                                           Appendix 2

                         Glossary of Terms


Wholesale   Wholesale funding sources include, but are not limited to, Federal funds,
Funding     public funds, Federal Home Loan Bank advances, the Federal Reserve’s
            primary credit program, foreign deposits, brokered deposits, and deposits
            obtained through the Internet or CD listing services. Financial institutions
            may use wholesale funding sources as an alternative to core deposits to
            satisfy funding and liability management needs.




                                      38
                                                                       Appendix 3

                               Acronyms

ACI      Adversely Classified Item

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

AML      Anti-Money Laundering

BBR      Bank Board Resolution

BSA      Bank Secrecy Act

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FAS      Financial Accounting Standards

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

GDB      Government Development Bank

GMS      Growth Monitoring System

LTV      Loan-to-Value

MLR      Material Loss Review

MOU      Memorandum of Understanding



                                        39
                                                           Appendix 3

                              Acronyms

NYRO    New York Regional Office

OIG     Office of Inspector General

OCFI    Office of Commissioner of Financial Institutions

ORL     Offsite Review List

PCA     Prompt Corrective Action

PRIC    Puerto Rico Investment Companies

REST    Real Estate Stress Test

ROE     Report of Examination

RRC     Regional Risk Committee

SCOR    Statistical CAMELS Offsite Rating

TARP    Troubled Asset Relief Program

UBPR    Uniform Bank Performance Report

UFIRS   Uniform Financial Institutions Rating System

U.S.    United States




                                      40
                                                                               Appendix 4

            Examiner Comments in Reports of Examination


                                                   ROE Dates   2005   2006   2007   2008
                       Deficiency/Risk
 Concentration in Automobile Leasing                                             
 Concentration in CRE Loans                                                     
 Concentration in ADC Loans                                                       
 Inadequate/Enhance Loan Underwriting                                              
 Subprime lending activity                                                       
 LTV Exceptions                                                                  
 Liberal Use of Interest Reserves                                                 
 Weak/Enhance Credit Administration                                               
 Inadequate Loan Policy                                                         
 Inadequate Capital for Subprime Lending                                         
 Inadequate Internal Loan Review and Grading System                            
 Inadequate ALLL Policy and Procedures                                          
 Inadequate Collections Policies                                                 
 Inadequate Disposition of Assets                                                
 Lack of Current Appraisals                                                       
 Lack of Segregation in Lending and Loan Administration
                                                                                  
  Functions
 Violations or Contraventions                                                      
 Legal Lending Limit - Puerto Rico Banking Law
                                                                                  
 Section 17 (a) and (d)
 Part 323-Appraisal Violation                                                     
 Part 365-Interagency Guidelines for Real Estate Lending
 Policies                                                                        
 Guidance on Concentrations in CRE                                                
 Recommendations                                                                  
 Improve Internal Loan Review Function                                         
 Improve Underwriting/Credit Administration Procedures                          
 Improve Identification of Subprime Loans and Establish Risk
                                                                                 
 Tolerance
 Improve Lending Policies                                                        
 Asset Losses                                                                     
 Significant Loan Deterioration                                                  
Source: Examination reports for Eurobank.




                                                 41
                                                                                        Appendix 5

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990                Division of Supervision and Consumer Protection

                                                                         December 1, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson [signed by Sandra L. Thompson]
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of Eurobank,
                 San Juan, Puerto Rico (Assignment No. 2010-067)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s Office of Inspector General
(OIG) conducted a material loss review of Eurobank, San Juan, Puerto Rico, which failed on April 30, 2010.
This memorandum is the response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s
Draft Report (Report) received on November 10, 2010.

Eurobank failed because the Board and management did not effectively oversee and appropriately react to
Puerto Rico’s prolonged and severe recession, particularly with respect to Eurobank’s commercial real estate
and acquisition, development and construction loan portfolios. Management mishandled the administration of
these loan portfolios as the economy deteriorated, real estate sales slowed, and loans became delinquent.
Weaknesses in Eurobank’s internal loan grading system, appraisal review process, and underwriting of renewals
and extensions exacerbated losses. Erosion of capital associated with loan losses restricted and eventually
prohibited Eurobank from renewing brokered deposits, which it relied upon for operational funding.
Ultimately, Eurobank was not considered viable because of its deteriorating asset quality, poor earnings and
declining capital.

The FDIC’s supervisory attention to Eurobank from 2005 to 2010 was extensive, and included onsite joint
annual examinations with the Office of the Commissioner of Financial Institutions of the Commonwealth of
Puerto Rico (OCFI), offsite monitoring activities and targeted asset quality reviews. Weaknesses in risk
management practices first led to a management component downgrade to “3” in 2006. Weaknesses were
repeated and more pronounced in the 2007 and 2008 examinations, and the FDIC and OCFI progressively
downgraded component and composite ratings and used enforcement actions to secure Eurobank’s correction of
deficiencies. Eurobank’s Board and management failed to adequately address supervisory recommendations
and enforcement measures.

DSC issued a Financial Institution Letter in 2009 on The Use of Volatile or Special Funding Sources by
Financial Institutions That Are in a Weakened Condition to enhance our supervision of institutions, such as
Eurobank, with heavy reliance on volatile funding sources. Additionally, DSC has completed an examiner
training program that emphasizes a forward looking approach when assessing a bank’s risk profile. The training
reinforced consideration of risk management practices in conjunction with current financial performance,
conditions, or trends when assigning ratings and contemplating corrective actions. The early use of informal
enforcement actions to pursue correction of weak risk management practices is consistent with forward looking
supervision.

Thank you for the opportunity to review and comment on the Report.


                                                    42
